CERTIFICATE OF COMPLIANCE
No. 19-1284
MALWAREBYTES, INC.,
PETITIONER,
V.

ENIGMA SOFTWARE GROUP USA, LLC,
RESPONDENT.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Amici Curiae Cybersecurity Experts in Support of Petitioner contains
3949 words, excluding the parts of the brief that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 11, 2020

PHILLIP R. MALONE

